                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A08040021
                                                                             11          Page 1 of 1



            We identified a proposal' (Proposal 1) containing apparently copied text as part of our
    proactive review of Research Experiences for Undergraduate (REU) proposals. The proposal was a
    request for renewal of an already existing REU site. Further review included five additional
    proposals (Proposals 2-6j2 submitted by the PI^ in the last five years. The C O P I ~   had no other
    proposals in that time frame other than the previous REU proposal which appeared to be
    substantially similar in content to the proposal that identified in our proactive review. Of the five
    additional proposals reviewed, we identified the same or substantially similar text to that appearing
    as copied in Proposal 1. The vast majority of the text was descriptive text found on the departmental
    website or affiliated departmental websites at the ~niversity.~The proposal appears to be a
    departmental effort to continue a program involving numerous faculty members as mentors who are
    not identified as PI or CoPI but appear to have been involved in various contributions to the
    proposal. Thus, the circumstances in this case weigh against pursing firther an allegation of
    plagiarism.

           Accordingly, this case is closed.                    I
